CERTIFICATE OF SERVICE
I certify that a true and correct copy of the foregoing petition for a writ of
certiorari to the Supreme Court of the United States has been served upon
counsel for the Respondent, Martha L. Boyd, Samuel L. Felker, and
Brittany B. Simpson, Baker, Donelson, Bearman, Caldwell & Berkowitz,
P.C., Baker Donelson Center, Suite 800, 211 Commerce Street, Nashville,
Tennessee
37201,
via
email
at
mboyd@bakerdonelson.com,
samfelker@bakerdonelson.com, and bsimpson@bakerdonelson.com, and
via U.S. regular mail, this the 3rd day of November, 2020.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 3, 2020

Peter R. Culpepper, Petitioner

